   U.S. ELECTION ASSISTANCE COMMISSION

        OFFICE OF INSPECTOR GENERAL





                     FINAL AUDIT REPORT:

                  IMPROVEMENTS NEEDED

                IN MANAGEMENT OF TRAVEL

         BY THE ELECTION ASSISTANCE COMMISSION





NO. I-PA-EAC-01-06
JULY 2007
        U.S. ELECTION ASSISTANCE COMMISSION
                OFFICE OF INSPECTOR GENERAL

             1225 New York Ave. NW - Suite 1100

                   Washington, DC 20005




                                                  July 5, 2007

To:       Donetta Davidson
          Chairwoman

From:     Curtis W. Crider
          Inspector General

Subject: Final Audit Report - Improvements Needed in the
         Management of Travel by the Election Assistance
         Commission (I-PA-EAC-01-06)

The subject report presents the results of our audit of the
administration of travel by the Election Assistance Commission
during fiscal years 2005 and 2006.

We found that travel was not performed in accordance with
the Federal Travel Regulation. Our audit identified errors in
91 percent of the travel packages (authorizations and
vouchers) examined. While the majority of the errors were
minor, such as claiming taxes as part of the lodging rate, some
were more significant, such as traveling to a location that was
not authorized or claiming a lodging rate that exceeded the
authorized rate. Overall, the mistakes evidence a need for
independent controls and clear instructions on the preparation
and approval of authorizations and vouchers, and for effective
reviews of the accuracy of the travel claims.

We also noted a need for procedures to ensure that
international travel is essential to the EAC mission and that
employees receive compensatory time when traveling on their
own time.

Finally, we concluded that travel cards were adequately
controlled and used for official purposes and that travelers
generally paid their travel card bills on time.

The Executive Director in his June 26, 2007 response to the draft
report (Appendix 2), concurred with the findings and
recommendations. The response indicated that the EAC
administrative staff had begun additional oversight of employee
travel authorizations and vouchers and had arranged for
additional training. In addition, the EAC would draft internal
policies and procedures to address the issues raised in the report.
Based on the response we consider the report’s recommendations
resolved but not implemented. Accordingly, we request that you
provide us with copies of the procedures/guidance that will be
developed as a result of the recommendations.

The legislation creating the Office of Inspector General
requires that we report to Congress semiannually on all audit
reports issued, actions taken to implement our
recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our
next semiannual report.

We appreciate the cooperation provided by the Commission
during our audit. If you have any questions about this report,
please call me at (202) 566-3125.




                         2

INTRODUCTION 


Background            The Help America Vote Act of 2002 (HAVA) established the U.S.
                      Election Assistance Commission (EAC). EAC is charged with
                      adopting voluntary voting system guidelines, serving as a national
                      clearing house and resource of information regarding implementation
                      of the guidelines and effective administration of Federal elections,
                      testing voting system hardware and software, administering payments
                      and grants to states for replacement of voting systems and other
                      election administration improvements, and implementing the Help
                      America Vote College Program.

                      EAC’s operating budget was approximately $14 million in both fiscal
                      years 2005 and 2006. EAC expenditures for temporary duty travel
                      were $436,398 in fiscal year 2005 and $420,703 in fiscal year 2006.
                      The expenditures covered travel by its staff of about 25 employees
                      and contractors and travel of the Standards Board (110 members), the
                      Board of Advisors (37 members), and the Technical Guidelines
                      Development Committee (14 members). 1

Objective, Scope      The objective of our audit was to determine whether (1) travel was
and                   performed in accordance with the Federal Travel Regulation (FTR),
Methodology           (2) travel cards were properly controlled and used for only official
                      purposes and, (3) travelers paid their travel card bills in a timely
                      manner.

                      We examined processes used by the EAC to authorize and pay
                      temporary duty travel in fiscal years 2005 and 2006 and to control the
                      use of Federal travel cards for the first half of fiscal year 2007. EAC
                      travel vouchers are processed for payment by the General Services
                      Administration (GSA), which provides financial management
                      services to the EAC. Our audit did not include a review of controls
                      over financial data processed by GSA.

                      To accomplish our objective, we reviewed EAC procedures and
                      obtained information from EAC officials on processes and controls
                      over travel and travel cards and to obtain details on individual travel
                      authorizations and vouchers. From the detailed transaction data, we
                      examined a sample of travel authorizations and associated vouchers
                      to assess compliance with appropriate requirements and accuracy of
                      amounts claimed, and discussed any follow up matters with the

1
 HAVA authorizes the Standards Board and Board of Advisors to review voting system guidelines and
best practices developed by EAC. The Technical Guidelines Development Committee is authorized by
HAVA to help EAC develop voluntary voting system guidelines. HAVA authorizes members of the
Boards and the Committee to be paid for their travel expenses.

                                                 1

individual travelers. In addition, we obtained authorization from
Citibank to access travel card transactions and examined all charges
to each issued card for propriety from October 1, 2006, through
March 23, 2007. We performed our audit in accordance with
generally accepted government auditing standards.




                        2

RESULTS OF AUDIT 


Improvements           EAC lacks adequate written policies and procedures to guide its
Needed in              employees in temporary duty travel and an effective process to
Controls Over          oversight travel. As a result, it does not have assurance that travel is
Travel                 properly authorized, accurately claimed, and mission-related. We
                       found errors on 39 of 43 travel vouchers and related authorizations
                       which we examined. While many of the errors were minor, they
                       demonstrate a weakness in EAC’s control over travel.

                       The Federal Travel Regulation (FTR), 41 Code of Federal
                       Regulations (CFR), Chapters 300 to 304, implements statutory
                       requirements and Executive branch policies for travel by Federal
                       civilian employees and others authorized to travel at Government
                       expenses. The FTR requires Federal agencies to establish agency
                       policies and procedures in 12 areas, such as for authorizing travel,
                       paying per diem and transportation expenses, and arranging
                       conferences. Since fiscal year 2004, when EAC began operations,
                       through fiscal year 2006, EAC has issued only one policy paper for
                       travel - one which governs acceptance of travel from non-Federal
                       sources. The policy was issued in June 2005.

                       While EAC does not have written policies and procedures, it does
                       have an informal process for authorizing travel and approving
                       vouchers. That process calls for the Executive Director to approve all
                       authorizations and vouchers and for EAC’s Administrative Officer to
                       review travel vouchers prior to submission for payment.

                       From listings of travel vouchers provided by EAC, we judgmentally
                       selected 43 vouchers and related authorizations for review. We
                       picked vouchers that covered international travel and commissioner
                       and EAC staff travel for meetings, conferences, and speeches. On the
                       positive side, we found that, all travel was approved in advance
                       except in three instances, all vouchers were approved before
                       payment, amounts claimed for reimbursement were supported by
                       source documentation such as hotel and taxi receipts, and the
                       amounts claimed were mathematically correct. However, the
                       approval process did not prevent errors from regularly occurring and
                       in many cases resulted in a subordinate authorizing and approving
                       travel by supervisors, which does not meet a control standard for
                       independence. 2

2
  According to the General Accounting Office, its Standards for Internal Control in the Federal
Government considers the issue of a subordinate authorizing their supervisors’ travel to be flawed from an
independence viewpoint.

                                                     3

                In reviewing the packages of vouchers and associated authorizations,
                we identified 96 errors (violation of the FTR). The majority of the
                errors were inconsequential, such as claiming taxes as part of the
                lodging rate or not disclosing all departure and arrival dates. Others,
                however, were more significant such as traveling to a location that
                was not authorized or claiming a lodging rate that exceeded the
                authorized rate. Overall, the mistakes evidence a need for
                independent controls and clear instructions on the preparation and
                approval of authorizations and vouchers, and for effective reviews of
                the accuracy of the travel claims. A summary of the errors is
                presented in Appendix 1.

International   We paid particular attention to international travel because of our
Travel          concern over how it related to the mission of the EAC. The FTR
                (301-2.2) says that an agency may pay only those travel expenses
                essential to the transaction of official business. According to the
                EAC General Counsel, official business must benefit the agency not
                the employee, be concerned with the functions for which the agency
                was appropriated money, and further the mission of the agency. To be
                related to the mission of the EAC, the EAC general counsel said the
                activities must pertain to:

                   (1) the adoption of voluntary voting system guidelines, including
                       the maintenance of a clearinghouse of information on the
                       experiences of State and local governments in implementing
                       the guidelines and in operating voting systems in general;

                   (2) the testing, certification, decertification, and recertification of
                       voting system hardware and software;

                   (3) conducting studies and carrying out other activities to
                       promote the effective administration of Federal elections;

                   (4) election assistance, and providing information and training on
                       the management of the HAVA payments and grants;

                   (5) the adoption of voluntary guidance; and

                   (6) developing and carrying out the Help America Vote College
                       Program under title V.

                Our review identified seven international trips during fiscal years
                2005 and 2006. Six trips were taken by one commissioner and one
                trip was taken by another commissioner. The six trips are listed in
                the following table.



                                         4

Table : International Travel


 Location
  of Trip                    Purpose of Travel                     Funded By

 Bogotá,     Speak at III Inter-American Meeting on Electoral      Electoral
 Columbia    Technology. Representatives of election               Institute of
             institutions of north, central, and south America     Colombia
             presented information on strategies for
             incorporating new technology in the electoral
             process.

 Montreal,   Participate in an international mission on Haiti.     Elections
 Canada      The objective of the mission is to provide neutral    Canada
             and impartial assessments, evaluations and
             observations on the Haitian electoral process
             intended to support the building of democratic
             institutions in that country.

 Siofok,     Attend and Participate in Conference of Global        EAC
 Hungary     Election Organizations and the Association of
             Central and Eastern European Election Officials
             General Assembly Meeting. The conference
             program addressed legal remedies in the election
             processes and standards of electronic voting.

 Warsaw,     Continued from Hungary to Poland to attend a          State
 Poland      Human Dimensions Implementation Meeting at            Department
             the request of the State Department. Attendance
             followed the meeting in Siofok.

 Moscow,     Attend an Organization for Security and               State
 Russia      Cooperation in Europe Meeting. The meeting            Department
             provided the opportunity for practitioners involved
             in the field of election observation to exchange
             their respective experience. After receiving the
             invitation, EAC requested and obtained State
             Department financing of the trip.

 Ottawa,     Participate in the Elections Canada International     EAC
 Canada      Visitors Program and to observe Canadian
             elections at the request of Elections Canada. The
             visitors program provided a general briefing on
             Canada’s computerized real-time management
             process for the election.

 Budapest,   Attend and participate in international symposium     EAC
 Hungary     on international e-participation and local
             democracy symposium.

 Riga,       Attend and participate in the Association of          EAC
 Latvia      Central and Eastern European Election Officials
             15th Annual Conference entitled National
             Referendum: Technical and Legal Aspects



                            5

                 According to the former Chairman of the Commission, the meetings
                 provided an opportunity to interact with election officials from
                 around the world and for an exchange of ideas that impart
                 information useful to accomplishing the EAC mission. Furthermore,
                 the former Chairman advised that it is important for the United States
                 to be represented at these meetings because it is seen as a leader in
                 the democratic process. We understand that participation in these
                 international events may be important to the United States and that
                 the subject of the meetings/conferences has some nexus to elections.
                 That notwithstanding, we believe EAC needs an independent internal
                 review of proposed foreign travel to make sure that EAC involvement
                 is essential to the accomplishment of a specific mission objective.

Travel Funded    The EAC policy for control over travel funded by non-federal sources
by Non-Federal   does not provide for an independent determination of whether
Sources          commissioner attendance at the event is desirable or practical. In
                 addition, commissioners did not follow the EAC requirement for
                 obtaining a General Council determination of whether travel expenses
                 may be accepted. Finally, one of two trips that should have been
                 reported to the Office of Government Ethics was not reported.

                 EAC’s June 29, 2005 policy paper on accepting travel expenses from
                 non-federal sources says that commissioners will determine for
                 themselves whether attendance an event funded by a non-federal
                 source is consistent with their official duties and is in the best interest
                 of EAC. We believe that this policy is not consistent with a key
                 component of internal control - segregation of duties. In particular,
                 responsibilities and duties involving transactions and events should
                 be separated among different employees with respect to
                 authorization, approval, and processing.

                 The EAC policy also requires that, after travel is authorized for an
                 event, commissioners and other employees shall forward the matter to
                 the General Counsel for a recommendation as to whether travel
                 expenses should be accepted. This recommendation is based largely
                 on a conflict of interest analysis. According to the Deputy General
                 Counsel, only one trip was submitted to the General Counsel.
                 However, we identified two trips that were taken by two different
                 commissioners that should have been referred to the General Counsel.
                 The trips were sponsored by the Mississippi Secretary of State, and
                 the House Democratic Caucus. As the commissioners approve their
                 own travel, the General Counsel has no means to independently
                 determine whether authorized trips are submitted for a conflict of
                 interest analysis.




                                           6

                 The EAC policy also references the requirement in 31 USC § 1353
                 for agencies to file semiannual reports to the Office of Government
                 Ethics if they accept payments in excess of $250 for a single event.
                 EAC. We identified one trip to Canada by a commissioner that was
                 funded by Elections Canada but was not reported to the Office of
                 Government Ethics.

Compensatory     EAC has not yet implemented procedures to give compensatory time
Time             to employees who travel on official duty outside their regular work
                 hours. On January 27, 2005, the Office of Personal Management
                 published Federal regulations (5 CFR 550, Subpart N) that authorized
                 agencies to credit employees with compensatory time off, “on an
                 hour-for-hour basis,” for time in travel status if –

                     (1) The employee is required to travel away from the 

                         official duty station; and 

                     (2) The travel time is not otherwise compensable hours of
                         work under other legal authority.

                 Based on flight itineraries, we saw that many EAC employees
                 traveled outside of normal work hours, including on weekends.
                 These trips were authorized by the employees’ supervisors.
                 However, the employees did not request or receive compensatory
                 time. We attributed this situation to a lack of written guidance.

New EAC          The EAC published its administrative manual on December 7, 2006.
Administrative   The manual includes a section on travel that establishes requirements
Manual a Step    for preparing travel authorizations, travel vouchers, and using
in the Right     automobile transportation; identifies activities requiring special
Direction        approvals; and presents guidance for determining travel status time
                 and for traveling outside the work week. The chapter also refers
                 employees to the FTR for further guidance on temporary duty travel.

                 Written procedures are one of the cornerstones of good internal
                 controls. In this case, EAC has an adequate start but needs more
                 detailed instructions. For example, there are no sample completed
                 forms to help employees fill out travel authorizations and vouchers.
                 Further, reference to the FTR for guidance on temporary duty travel
                 is not sufficient because the FTR requires Federal agencies to develop
                 agency-specific procedures in 12 areas related to temporary duty
                 travel.

                 In regard to compensatory time, EAC’s administrative manual
                 authorizes it when EAC supervisors order and approve employee
                 travel outside regular work hours and approve the extra time “after
                 the employees completed” their travel. We believe that
                 compensatory time for travel outside a regular schedule should be

                                         7

         identified and justified in advance of travel by the employee. And,
         employees should request approval from supervisors for
         compensatory time in conjunction with processing the travel
         authorization. Forms should also be developed for tracking
         compensatory time earned and used.


RECOMMENDATIONS 


         We recommend that the Executive Director:

            1.	 Implement written procedures for conducting temporary duty
                travel.

            2.	 Implement written procedures for approving only
                international travel that is essential to accomplishing the
                mission of EAC.

            3.	 Modify the procedures for approval of travel funded by non-
                Federal sources to provide for an independent determination
                of whether the travel is desired and practical.

            4.	 Implement written procedures for authorizing and tracking of
                compensatory time for official travel outside of regular
                working hours.




                                 8

                                                                                                   Appendix 1
                                                                                                   Page 1 of 2

           Summary of Errors Identified in a Review of 43 Sample
          Authorizations/Vouchers from Fiscal Years 2005 and 2006
                Description of Error                          No.                        Example

Completed travel before authorization issued. FTR             3     An employee traveled July 19 to July 22, 2005.
requires an authorization before travel.                            Travel was authorized on August 31, 2005.

Paid parking at airport without comparison to taxi            9     An employee claimed $45 for parking but did not 

fares. FTR states that cost of parking may not                      show cost of taxi fare.
exceed cost of taxi to/from terminal

Determination that transportation expense most                7     An employee traveled from Buffalo, NY, to Los
advantageous to the government was lacking. FTR                     Angeles and Sacramento, CA and did not compare
limits reimbursement to the cost of travel by a direct              airfare against a departure from Washington, DC,
route or on an uninterrupted basis and by most                      the official duty station.
advantageous method. Traveler will be responsible
for any additional costs.

Travel authorization not properly completed to                17    The remarks section of an authorization said that
show approval of lodging rate higher than standard                  “excessive hotel charges in Santa Fe have been
lodging rate. FTR requires the authorization to                     approved.” The hotel receipt showed a daily room
include any conditions of or limitations on that                    rate of $199. The authorization showed a lodging
authorization and that authorizations be issued in                  rate of $85 and did not specify an actual expense
advance if actual expenses are approved.                            rate.

Claimed lodging rate higher than authorized. FTR              11    An employee claimed a daily lodging rate of $185
requires the authorization to include any conditions                for a stay in Baton Rouge, La. The travel
of or limitations on that authorization and that                    authorization approved a lodging rate of $71. The
authorizations be issued in advance if actual                       remarks section did not comment about the need
expenses are approved                                               for higher lodging rates.

Claimed Meals and Incidental Expenses (M&IE)                  4     An employee claimed the full M&IE rate for 3
rate but meals were provided or reimbursed with                     days while attending an event for which meals
payment of hotel bill. FTR requires the M&IE rate                   were provided. for $30.00
to be reduced for meals provided by the
Government or included in a registration fee.

Used car service instead of taxi for travel to and/or         5     An employee took a taxi from residence to airport
from residence to airport. FTR says travel must be                  for $30.00 and used a car service from the airport
by the most expeditious means of transportation                     to residence for $64.46.
practicable and commensurate with the nature and
purpose of your duties.

Claimed per diem for stay in location that was not            5     An employee traveled to Baton Rouge, Alexandria,
on travel authorization. The FTR states that the                    and Natchitoches, Louisiana. The travel
temporary duty location on the authorization                        authorization identified only Baton Rouge and
determines the maximum per diem allowance.                          Alexandria as itinerary points.

All arrival and departure dates were not shown on             14    An employee’s voucher shows the dates of a stay
the voucher. The FTR requires the traveler to                       in a hotel but not the dates of departure or return.
record the dates of departure and arrival the official
station or any other place travel begins or ends.




                                                         9

                                                                                               Appendix 1

                                                                                               Page 2 of 2 


           Summary of Errors Identified in a Review of 43 Sample 

          Authorizations/Vouchers from Fiscal Years 2005 and 2006

                Description of Error                    No.                         Example
Claimed tips for maids in addition to M&IE. The          5       An employee claimed $18 for tips at hotels.
FTR says incidental expenses include fees and tips
given to porters, baggage carriers, bellhops, hotel
maids, stewards or stewardesses and others on
ships, and hotel servants in foreign countries;

Claimed taxes as part of lodging rate. FTR says             16   An employee claimed a lodging rate of $167.56.
taxes are reimbursable as a miscellaneous expense                However, the lodging rate was only $144.96 and
and not as part of the lodging rate.                             taxes were $22.61.




                                                      10

                                                                                  Appendix 2


                          U.S. ELECTION ASSISTANCE COMMISSION
                          1225 New York Ave. NW - Suite 1100
                          Washington, DC 20005




MEMORA@D
      _.""..        ,.,



FROM:      .--­            Thomas R. Wilkey, Executive Director
                  ---­
TO:                        Curtis Crider, Inspector General

DATE:                      June 26, 2007

SUBJECT:                   Draft Audit Report: Improvements Needed in Management of Travel
                           by the Election Assistance Commission
                           No. I-PA-EAC-01-06



I have reviewed the contents and recommendations and concur with your
findings.

EAC Administrative staff has already begun additional training and
oversight of employee travel authorizations and travel vouchers and has
arranged for additional training by GSA travel representatives on all
aspects of Federal Travel Regulations.

EAC Administration and Legal staff will draft internal policies and
procedures in accordance with your recommendations within the next
ninety (90) days.

Please let me know if we need to do anything further regarding this matter.




                                                11
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
